IV
No.20-

In the
Supreme Court of the United States

Dr. Yuri J. Stoyanov,
Petitioner
v.
Department of the Navy, et al.,
Respondents.
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

FILED
FEB 2 1 2020

PETITION FOR WRIT OF CERTIORARI

Dr. Yuri J. Stoyanov
Pro Se
7560 Pindell School Road
Fulton, MD 20759
(202) 492-1671
Pro Se Petitioner

RECEIVED
MAR 1 3 2020

QUESTIONS PRESENTED
In this pro se case Petitioner respectfully requests the
US Supreme Court to intervene in this case, which is
the seventh petition to this Court. After prior six*
petitions for writ of certiorari were not considered by
this Court, the lower courts have became so
emboldened that now blatantly escalate judicial fraud
and the intentional cover-up of defendants’ recurring
federal crimes including their Mail Fraud and Wire
Fraud with Petitioner’s certified mail to dismiss the
amended/consolidated case by fraud so that defendants
with impunity could continue to escalate violations of
laws, fraud, discrimination, egregious retaliations to
harm Petitioner, to overburden, to deny discovery,
hearing and jury trial by fraud. This case is about
willful and persistent judicial fraud committed by
lower courts and their intentional cover- up of
defendants’ violations of laws, obstruction of justice,
fraud, including Mail Fraud and Wire Fraud and
defendants’ fraudulent motion to consolidate the
already consolidated case, after Petitioner discovered
and disclosed to the court respondents’ federal crimes
specifically, the Mail Fraud (18 U.S.C. section 1341)
and Wire Fraud (18 U.S.C. section 1343) and their
deliberate use of tampered official US Postal Service
records to deceive, to harm Petitioner, to dismiss the
case by fraud and then after they failed to dismiss,
they filed motion to consolidate the already
amended/consolidated case. After Petitioner filed
10/31/18 motion to amend/consolidate the original case
with six other relevant cases the defendants did not
* See Dr. Stoyanovs’ cases 08-1238, 08-888, 08-95, 09-1015, 09-1415,
17-174
l

file opposition to Petitioner’s motion nor any motion to
consolidate with additional cases. The court
proceedings moved on the consolidated case with 72
claims, 14 counts against defendants and 20 witnesses
and Petitioner timely sent via US Postal Service
certified mail and served with summons and complaint
each defendant. To dismiss the case by fraud
respondents intercepted and committed mail fraud
and wire fraud with Petitioner’s certified mail with
restricted delivery and then, after being caught, used
fraud and their fraudulent records to demand on
3/26/19
additional
consolidation
of
already
consolidated case with five additional separate
lawsuits, filed years apart. After Petitioner using US
Postal Service mail tracking records discovered the
federal crimes of mail fraud and wire fraud with his
mail committed by agency counsel defendant C.
Kessmeier with her assistant defendant Caron and
others, Petitioner timely filed “Motion to Investigate
Fraud and to Compel Defendants Representatives to
Accept and Serve with Summons and Complaint 15
Defendants.” While direct evidence of mail fraud and
wire fraud with the original US Postal Service mail
tracking records were submitted with the motion,
defendants’ representatives persisted with fraudulent
mail records, deliberately misrepresented facts and
fabricated baseless accusations. Petitioner filed
‘motion for sanctions and disclosed defendants and
defendants’ representatives fraud and baseless
accusations. However, to harm Petitioner and to coverup
Defendants
federal
crimes,
defendants
representatives Hur/Marzullo instead of proceeding
with discovery persisted with fraud, fraudulent
arguments and baseless accusations in their motions
and demanded additional consolidation of the already
n

V

amended/consolidated case.. Petitioner vigorously
opposed the consolidation and timely filed 4/5/19
oppositions to defendants’ unsupported 3/26/19 motion
based on fraud and fraudulent records. Petitioner
established that consolidation with five additional
lawsuits is improper because of critical factual
differences, different claims, different timing different
violations of laws by different defendants.. Differences
make it impossible to apply the state of the art
defense. Consolidation is improper where it would
expand the scope of its trial. A joint trial would expand
the number of witnesses and the scope of examination.
A joint trial would prejudice both trials of fact and
cause delay, confusion and wasted resources. The
inefficiencies inherent in a joint trial outweighed
efficiencies from consolidation. An ’’advisory jury”
compounds rather than solves the inefficiencies and
prejudice of consolidating fact finders in a joint trial.
Separate trials would yield significant efficiencies.
Defendants have not met their burden of showing
sufficient commonality and their main motive is fraud,
harm and overburden Petitioner and to cover-up
Defendants’ recurring federal crimes, including mail
fraud and wire fraud. The district court judge abused
discretion, committed fraud and denied Petitioner’s
‘motion to investigate fraud’ and two ‘motions for
sanctions’, which were unopposed by defendants,
instead, granted Defendants’ unsupported ‘motion to
consolidate’ based on fraud and Defendants’ tampered
official US Postal Service records**. The pattern of
judicial fraud and respondents’ escalated intentional
violations of laws, obstruction, fraud, including fraud
with transcripts of court hearings, fraud with the
official US Postal Service records: the recurring mail
” See District judge 4/16/19 Order, Appendix 3A
111

1

fraud and wire fraud, is already in this court records,
see prior petition 17-174 to this court. Prior to
Petitioner’s instant petition, the intentional violations
of laws, fraud, including Mail Fraud and Wire Fraud
to harm Petitioner and his brother Dr. Aleksandr
Stoyanov to harm us, deny us discovery, court
hearings and jury trials by fraud were committed by
the agency counsel career criminal Defendant C.
Kessmeier with her assistants, career criminals
Defendant D. M. Caron, Rod Rosenstein with his
assistant career criminal John Sippel, Jr. These career
criminals acted in conspiracy with the district court
judges in Baltimore and Greenbelt, Maryland such as
the career criminals, Andre M. Davis, Deborah K.
Chasanow, Richard D. Bennett, W. D. Quarley, W. M.
Nickerson and others who committed judicial fraud in
all our lawsuits filed since 2005. In this seventh
petition to this court Petitioner respectfully requests
the US Supreme Court to exercise its supervisory
power to intervene, to investigate and stop the flood of
lower courts judicial fraud, to stop these courts of
fraud; to stop the escalated fraud upon the court, their
intentional violations of laws and the fabrication of
fraudulent decisions, the recurring federal crimes of
Mail Fraud and Wire Fraud, and the cover-up of
crimes and criminals. Without the removal of the
career criminals on the bench at the US District court
of Maryland and the US court of Appeals for the 4-th
circuit, the judicial fraud, the intentional violations of
laws, the escalated Federal Crimes of Mail Fraud and
Wire Fraud and the cover-up of crimes and criminals
to harm Petitioners and the business of the nation’s
court system will continue to escalate.
This case is significant because it highlights
escalated intentional judicial fraud committed by the

IV

chief judge R. L. Gregory of the 4-th circuit. This
career criminal had perverted and transformed the
court of law into the court of fraud. Every decision in
Gregory’s court of fraud had been decided by fraud and
the cover-up of the willful and persistent judicial fraud
committed by district court judges and his
subordinates, This case is one of the most egregious
miscarriages of justice exacerbated because the chief
judge Gregory for the 4th circuit knows that he is doing
wrong, but continues on a course of judicial fraud to
cover-up crimes and criminals, including his fraud and
his subordinate judges’ fraud, and his fraudulent
decisions adopted from intentional fraud submitted by
the Defendants. Since 2002 after Petitioner filed first
disclosures with chain of naval command and with the
US Office of Special Counsel, and first EEO
discrimination complaint, he was protected by laws,
such as the Whistleblower’s Protection Act and by
EEOC laws, however, the career criminals on the
bench persistently committed judicial fraud, ruled in
favor of defendants by fraud and never stopped
defendants violations of laws, fraud, intentional
discrimination and escalated retaliations. Since first
lawsuits of 2005 were filed by Petitioner defendants
were not stopped, none of the defendants were
examined under oath to this day and none were
persecuted or punished so that they again with
impunity committed additional violation of laws,
fraud, including the Federal crimes, namely, the
January 2019 Mail Fraud (18 U.S.C. section 1341) and
the Wire Fraud (18 U.S.C. section 1343) and were
caught again***See Motion to Investigate Fraud and

*** See Dr. Stoyanov’s instant Case No. CCB-09-3479 [with 72 claims, 14
counts and 20 witnesses], Appendices 5A, 6A and 7A.

two motions for sanctions. Note that the defendant
Kessmeier with her assistant defendant Caron and
others, and defendants representative with district
judges committed Federal crimes of Mail Fraud and
Wire Fraud not only at the agency but also at the
district court of Maryland, and not only in January
2019 but also in 2014****, 2013, 2008 and prior years
and all their crimes were intentionally covered up by
willful and persistent judicial fraud so that they could
with impunity continue to violate laws and commit
more crimes, including Federal crimes and the cover up of crimes and criminals. See 4/16/19 Order denying
Petitioner’s motions to investigate fraud and his
motions for sanctions while at the same time granting
defendants’ fraudulent motion to consolidate by fraud
the already amended/consolidated case with five
additional separate lawsuits so that these career
criminals with impunity can continue to escalate more
violations of laws, fraud, intentional discrimination
and egregious retaliations.
The Questions to this Court:
1) Whether the abuse of discretion, willful and
persistent judicial fraud and Respondents’
federal crimes of fraud, including Mail Fraud
and Wire Fraud with Petitioner’s mail are
sufficient bases to stop the super consolidation
of the already amended/consolidated case?

See Dr. Stoyanov’s prior petition No. 17-174 to this court and Dr.
Stoyanov’s’ 9/3/16 complaint of district judge Chasanow’s judicial fraud
filed with the court of appeals for 4th circuit, No. 04-16-90087 Appendix A9

VI

2) Whether the Supreme Court can wake up to
exercise it’s supervisory power to grant
Petitioner’s seventh request to investigate
willful and persistent judicial fraud committed
by lower courts and defendants’ recurring
federal crimes, of obstruction of justice, fraud,
including recurring Mail Fraud and Wire Fraud
committed by defendants and defendants’
representatives Rosenstein, Sippel, Hur,
Marzullo?
3) How much longer this court will ignore the 4th
circuit Gregory’s court of fraud and his career
criminals on the bench at the district court of
Maryland to cover- up crimes and criminals
intentional discrimination, egregious retaliations
and violations of law, fraud, and crimes?
The United States Court of Appeals for the Fourth
Circuit has wrongly decided an important question of
federal law that has not been, but should be settled by
this Court. The district court final 4/16/19 Order on
defendants' motion to consolidate the already consolidated
case was based on fraud and fraudulent records to harm
Petitioner and to cover-up recurring federal crimes of Mail
Fraud and Wire Fraud committed by Respondents. The
district court final 4/16/19 and 4/30/19 Orders are
unsupported, wrong and are a clear manifest of injustice
and fraud that imposes undue burden on the Petitioner, see
Appendices 3A, 4A. Specifically, the 4th circuit did not
address any issue raised in Petitioner's appeal, instead
dismissed the appeal for fraud contrary to the fact that
district judge orders 4/16/19 and 4/30/19 on the
consolidation of the already consolidated case are final. See
4/30/19 Order on Petitioner’s 5/4/19 motion of
opposition to defendants’ 4/26/19 motion to consolidate

Vll

the already consolidated case with five additional separate
lawsuits is final.
The court of appeals for 4th circuit committed
intentional cover-up of judicial fraud committed by the
district court judge in Baltimore C.C. Blake. Petitioner's
motion to investigate fraud and the two motions for
sanctions were unopposed by defendants, however, were
denied by Blake while at the same time defendants’
untimely motion to consolidate by fraud granted.
The district court final orders on the super consolidation
was deliberately misrepresented by the 4-th court of appeal as
not final, to cover-up judicial fraud committed by district judge
Blake, and, to retaliate for Petitioner’s prior petitions for writ
of certiorari where Petitioner provided direct evidence in the
court records that the chief judge Roger L. Gregory of the 4-th
circuit deliberately lied and committed fraud in his orders and
memorandums, see direct evidence of Gregory’s fraud and the
cover-up of crimes and criminals in prior petition to this court
17-174 and see also Petitioner’s complaints of judicial
misconduct committed by district judges D. K.
Chasanow, G. L. Russell. To cover-up willful and
persistent judicial fraud committed by district court
judges Deborah K. Chasanow, G. L. Russell, A. M.
Davis, R. Bennett, Quarles, Nickerson and other
career criminals on the bench in the district court of
Maryland, their criminal chief Gregory does himself
fraud and encourages others to rule and make
decisions based not on the rule of law and facts, but
instead on the rule of fraud, submitted in court
proceedings by career criminal Rod Rosenstein with
his assistants: career criminals J. Sippel, Jr., R. Hur,
K. Marzullo and others. These egregious career criminals
must be charged, disbarred and jailed. The career criminal
Roger L. Gregory in position of the chief judge became the
chief criminal who perverted and transformed the lower courts
vm

into courts of fraud, where every decision was made by fraud,
see all my brother Dr. Aleksandr Stoyanov’s and my cases
filed in the court since 2005. See Respondents’ recurring Mail
Fraud and Wire Fraud of 2019, 2014, 2013, 2008 at the agency
location and at the court location, and the judicial fraud
committed by the criminals on the bench, their willful and
persistent fraud and the cover-up of crimes and criminals. See
additional evidence in Petitioner’s sixth petition to this court
No. 17-174.
The United States court of appeals decision $$$$$
failed to stop district judge fraud, abuse of discretion,
violations of the Petitioner’s rights and, instead,
covered up crimes and criminals, thereby opened the
floodgate of harm to the judicial system and the
Petitioner. The Fourth Circuit Court of Appeals has
decided an important federal question in a way, which
conflicts with the relevant decisions of this Court that
clearly call for an exercise of this Court’s supervisory
power.

sis j)s s|s s}! si:

See December 3, 2019 Order of the court of appeals for 4th
circuit (Appendix 1A) and Unreported September 30, 2019,
Unpublished Per Curiam Opinion (Appendix 2A)
IX

LIST OF PARTIES
Petitioner-64-years-old DR. YURI J. STOYANOV
was at all times relevant to this action employed as a
Scientist, GM-13, ND-1310-4, at the Naval Surface
Warfare Center, Carderock Division, of the US
Department of the Navy (the “Agency”). This case is
seventh in a series of fourteen cases filed with the US
District Court of Maryland since 2005.
Because of the Petitioner’s age, national origin
and in reprisal for participation in the Whistleblowing
and the EEO discrimination complaint activities since
2002, Respondents, current and former employees of
the agency with impunity escalated intentional
violations of laws, intentional discrimination,
egregious retaliation, and fraud, including mail fraud
and wire fraud. Since 2005, after Petitioner and his
brother Dr. Aleksandr J. Stoyanov filed first lawsuits
with the US District court of Maryland, the career
criminals on the bench in Baltimore and Greenbelt,
Maryland instead of stopping defendants’ violations of
laws, fraud, intentional discrimination and egregious
retaliations against us, covered-up crimes of
defendants and defendants’ representatives, and
encouraged them to escalate their violations by their
fraudulent decisions, where every decision was made
on fraud, without jury trial, without discovery and
hearing, simply by adopting defendants’ deliberate
misrepresentations and fraud. To bring truthfulness
into court proceedings Petitioner and his brother since
2005 filed motions, such as, ‘Motions to Compel
Defendants Representatives to Certify Under Penalty
of Perjury the Content of Defendants’ correspondence
to be Accurate and True” and also ‘Motions for
Sanctions against Defendants’. Petitioner’s motions
x

were supported by direct evidence of defendants’ fraud
in the record and were timely filed, however, were
denied by the career criminals on the bench so that the
agency counsel, the career criminal Defendant C.
in
Kessmeier,
conspiracy
with
Defendants
Representatives the US Attorney career criminal R.
Rosenstein, with their assistants, specifically, career
criminals J. Sippel, Jr., Defendant D. Caron and
others, with impunity could continue to escalate
violations of laws, fraud, submit deliberate
misrepresentations, suborn witnesses, instigate
defendants to violate laws, intentional discrimination,
egregious retaliation and fraud with impunity, and
their fraud adopted by career criminals on the bench
in their rulings and fabricated fraudulent decisions in
favor of defendants. Direct evidence of willful and
persistent judicial fraud is in the court records:
In 2005, Petitioner and his brother in their first
lawsuits against the same defendant, namely, the
third level supervisor Defendant J. King, who is now
dead but at all time relevant herein he was sick in the
head from brain tumor, with his subordinates, whom
he fraudulently and secretly promoted and installed to
positions of authority, intentionally escalated
violations of laws, fraud, intentional discrimination
and egregious retaliations against the Petitioner and
his brother Dr. Aleksandr Stoyanov, the only two
Russian born employees in the department, to remove
from work by fraud for Whistleblower’s and EEO
discrimination complaint activities. Cases were
assigned to the same US District judge R. Bennett who
ruled and fabricated fraudulent decision based on
fraud submitted by defendants’ representatives R.
Rosenstein and J. Sippel. Petitioners caught them
committing fraud with transcripts of court hearings.

xi

Then, after fraud with transcripts of court hearings
and Bennett’s fabricated fraudulent decisions
Petitioners disclosed to this court, neither Bennett nor
Rosenstein, nor defendants were stopped, nor
punished, and, instead, encouraged to escalate
violations of laws, fraud with impunity, and there was
no more hearings in Petitioner’s other cases. The
career criminal Bennett intentionally stalled the follow
on cases and assigned them to the inactive docket.
Petitioner was able to reactivate this 2009 civil action
only in September 2018.
Respondents RAY MABUS, Secretary of the Navy; JAMES H. KING,
Individually and in his Official Capacity as the Head of Code 70;
KEVIN M. WILSON. Individually and in his Official Capacity as
the Head of Code 74 Carderock Division Naval Surface Warfare
Center; DAVID L. MAYO, Individually and in his Official
Capacity a~ the Head of Code 743 Carderock Division Naval
Surface Warfare Center; MARK THOMAS, Individually and in
his Official Capacity as BEO Chief and Commander of Code 00
Carderock Division Naval Surface Warfare Center; DAVID
CARON, Individually and in his Official Capacity as Assistant
Counsel Code 39 Carderock Division Naval Surface Warfare
Center; JACK K. TEMPLETON, Individually and in his Official
Capacity as Head of Code 20 Carderock Division Naval Surface
Warfare center; CATHERINE L. KESSMEIIER, Individually and
in her Official Capacity as Counsel of Code 004 Carderock
Division Naval Surface Warfare Center; KENETH R.
GOLDMAN, Individually and in his Official Capacity as Head of
Code 71 Carderock Division Naval Surface Warfare Center;
KENNETH I. FORMAN, Individually and in his Official Capacity
as Head of Code 73 Carderock Division Naval Surface Warfare
Center; SAM HAN, Individually and in his Official Capacity as
Head of Code 74 Carderock Division Naval Surface Warfare

Center; CIRO MINOPOLI, Individually and in his Official
Capacity as Head of Code 75 Carderock Division Naval
Xll

Surface Warfare Center; WILLIAM SNYDER,
Individually and in his Official Capacity as Head of
Code 20 Carderock Division Naval Surface Warfare
Center; M. WADE, Individually and in his Official
Capacity as Head of Code 21 Carderock Division Naval
Surface Warfare Center; M. I. BABERICH,
Individually and in her Official Capacity as Head of
Code 64 Carderock Division Naval Surface Warfare
Center; BRUCE CROCK, Individually and in his
Official Capacity as Head of Code 741 Carderock
Division Naval Surface Warfare Center; WILLIAM
MARTIN, Individually and in his Official Capacity as
Head of Code 722 Carderock Division Naval Surface
Warfare Center; CHARLES R. REEVES, Individually
and in his Official Capacity as Product Area Director
of Code 09 Carderock Division Naval Surface Warfare
Center; L. MURPHY, Individually and in his Official
Capacity as Read of Code 22 Carderock Division Naval
Surface Warfare Center; DAVID WINTER, DR Former
Secretary of the Navy U.S. Department of the Navy
GARY ROGHEAD, Individually and in his Official
Capacity as Chief of Navy Operations; ARCHER M.
MACY, Individually and in his Official Capacity as
Commander of NSWC; PAUL B. SULLIVAN,
Individually and in his Official Capacity as
Commander of SEA 00; JEFFERSON BEAUREGARD
SESSIONS III, Attorney General; ROBERT K. HUR,
U. S. Attorney, U.S. Attorney; MARGARET LONG,
Individually and in her Official Capacity as
Administrative/Technical Specialist Code 39; GARY M.
JEBSEN, Individually and in his Official Capacity as
the Head of Code 70; GARTH JENSEN, Individually
and in his Official Capacity as Deputy Head of Code
70; MIKE MULLEN, Individually and in his Official
Capacity as Chief of Naval Operations; ELAINE B.
xm

MCKINNEY, Individually and in her Official Capacity
as Deputy EEO Chief Code 004; WAYNE WEIKERT,
Individually and in her Official Capacity as the Head
of Code 70; CHRIS D. MEYER, Individually and in her
Official Capacity as EEO Chief and Commander of
Code 00; JEROME CARRUBBA, Individually and in
his Official Capacity as Security Manager of Code 03;
NEACLESA ANDERSON, Individually and in her
Official Capacity as General Counsel of Code 04;
JOSEPH VIGNALI, Individually and in his Official
Capacity as the Head of Code 7204; PAUL SHANG,
Individually and in his
Official Capacity as the Head of Code 707; SUN HAN,
Individually and in his Official Capacity as the Head
of Code 74; ROBERT WINGO, Individually and in his
Official Capacity as the Head of Code 7502; ROBERT
KOLLARS, Individually and in his Official Capacity as
the Head of Code 7102; JAMES SHANNON,
Individually and in his Official Capacity as Chief of
NSWC; KEVIN M. MCCOY, Individually and in his
Official Capacity as Chief of NAYSEA; GARY
ROUGHHEAD, Individually and in his Official
Capacity as Chief of Naval Operations; BARBARA
REDINGER, Individually and in her Official Capacity
as Security Manager Code 40; B. CAHILL, Ms.,
Individually and in her Official Capacity as Head of
Workforce Relations Branch Code 39

xiv

CERTIFICATE OF INTEREST
RULE 29.6 DISCLOSURE STATEMENT
Petitioner Dr. Yuri J. Stoyanov is not a corporation.

Yuma
Date

Yuri Stoyancr

xv

TABLE OF CONTENTS
QUESTIONS PRESENTED.....

I

LIST OF PARTIES...................

X

CERTIFICATE OF INTEREST

XV

TABLE OF CONTENTS

.XVI

OPINIONS BELOW......

1

JURISDICTION

1

STATUTES INVOLVED IN THIS CASE

2

STATEMENT OF THE CASE

2

Background............................................................................ 5
District Court Judge C. Blake’s Fraud and Abuse of
Discretion............................................................................... 8
Facts that Respondent fabricated baseless charges
against Petitioner and then committed Mail Fraud and
Wire Fraud to dismiss Petitioner’s claims by fraud,
WERE CAUGHT, AND THEN FILED FRAUDULENT MOTION TO
SUPER CONSOLIDATE THE ALREADY CONSOLIDATED CASE.... 12

Conclusion

17

ARGUMENTS

17

Standard of Review.

19

CONCLUSION

25

Cases
Arnold v. Eastern Air Lines, Inc., 681 F.2d 186, 193
(4th Cir. 1982),................................................................... 16
Arnold v. Eastern Air Lines, Inc., 681 F.2d 186, 193 (4th Cir.
1982).........................................................................
19
Arroyo v. Chardon, 90 F.R.D. 603 (D. P.R. 1981);
22
Cantrell v. GAF Corp., 999 F.2d 1007, 1011 .........
3,5
Dennis v. Columbia Colleton Med. Ctr., Inc., 290 F.3d
at 649-50 (4th Cir. 2002)
16
E.E.O.C. v. HBE Corp., 135 F.3d 543, 551 (8th Cir. 1998)...20
xvi

Glidden Co. v. Zdanok, 370 U.S. 530, 536 (1962............... 27
Huene v. United States, 743 F.2d 703, 704 (9th Cir.
1984).............................................................................. 16
Lehman Brothers v. Schein, 416 U.S. 386, 393 (1974)....... 27
McCarthy v. United States, 394 U.S. 459, 463-464 (1969) .... 27
Nguyen v. United States, 539 U.S. 69, 74 (2003).................... 26
Parapluie v. Mills, No. 2:ll-cv-02548-MMM-SS, 2012 WL
13009100, at *6 (C.D. Cal. Jan. 26, 2012)......................... 20
Reeves v. Sanderson Plumbing Products, Inc, 530 U. S.
133, 140 (2000).............................................................. 17
Southwest Marine, Inc. v. Triple A Mach. Shop, Inc., 720 F.
Supp. 805, 807 (N.D. Cal. 1989);..................................... 22
Wright v. United States, No. 3:92-cv-01290-BAC, 1993 WL
313040............................................................................... 21
Zhu v. UCBH Holdings, Inc., 682 F.Supp.2d 1049, 1052.....20

XVII

OPINIONS BELOW
1. U.S. Court of Appeals for the Fourth Circuit,
Docket No. 19-1502 (l:09-cv-03479 -CCB) Order
December 3, 2019. (Appendix 1A)
2. U.S. Court of Appeals for the Fourth Circuit,
Docket No. 19-1502, (l:09cv-03479-CCB) 9/30/19,
Unpublished Per Curiam Opinion (Appendix 2A)
3. U.S. District Court Order dated April 16, 2019,
Docket No. 1 :09-cv-03479 -CCB (Appendix 3A)
4. U.S. District Court Order dated April 30, 2019,
Docket No. 1 :09-cv-03479 -CCB (Appendix 4A)
5. Petitioner’s 1/18/19 “Motion to Investigate Fraud
and to Compel Defendants Representatives to Accept and
Serve with Summons and Complaint 15 Defendants.”
(Appendix 5A)
6. Petitioner’s 3/25/19 “Motion for Sanctions and
Rebuttal of Defendants Fraudulent response of 3/13/19
and 3/18/19 to Plaintiffs 1/18/19 Motion to Investigate
Fraud and to Compel Defendants’ representative to
Accept and Serve with Summons 15 Defendants at
Bethesda, MD.” (Appendix 6A)
7. Petitioner’s 4/5/19 “Second Motion for Sanctions and
Opposition to Defendants’ Unsupported Motion of 3/26/19
with Fraudulent Demand to Consolidate” (Appendix 7A)
8. Petitioner’s 4/26/19 “Motion to Reconsider and
Rescind the 4/16/19 Order and to Issue New Order to
rescind consolidation of lawsuits, and to grant
Plaintiffs motions to Investigate Recurring Federal
Crimes of Mail Fraud and Wire Fraud committed by
Defendants and to Impose Sanctions against
Defendants” (Appendix 8A)
JURISDICTION
Per Curiam Opinion of the court of appeals was
entered on September 30, 2019. Timely petition for
rehearing en banc were filed on the 10/10/19, denied
1

on December 3, 2019. The petition for a writ of
certiorari is filed within 90 days. The jurisdiction of
this Court is invoked under 28 U.S.C. §1254.

STATUTES INVOLVED IN THIS CASE
a) Whistleblower Protection Act, 5 U.S.C. 2302(b)(8)
(“WPA”); 5 U.S.C. §§2301-2302; 42 U.S.C. §1983.
Jurisdiction of this matter pursuant to 28 U.S.C.
1331 and 28 U.S.C. 1367, 28 U.S.C. 1343, 29 U.S.C.
621 et seq., and 42 U.S.C. 1983, Age Discrimination
in Employment act of 1967, 29 U.S.C. 621 et seq.
(“ADEA”); Title VII of the 1964 Civil Rights Act, 42
U.S.C. 2000e et. seq. (“Title VID;
b) Jurisdiction over Dr. Yuri J. Stoyanov’s
Whistleblower
claim
is
conferred
under
Whistleblower Protection Act (“WPA”) of 1989
(Public Law 101-12). Jurisdiction over individual
defendants is conferred by 42 U.S.C. §1983
c) Mail Fraud (18 U.S.C. section 1341) and Wire
Fraud (18 U.S.C. section 1343).
STATEMENT OF THE CASE
Petitioner Dr. Yuri J. Stoyanov filed the original civil
action Case No. 09-3479 with the U.S. District court of
Maryland, with 14 counts against defendants at the agency,
the Naval Surface Warfare Center (NSWC), Carderock
Division in Maryland and 34 claims of employment
discrimination and egregious retaliations against him on the
basis of his participation in the Whistleblower’s activity since
2002, in violation of Age Discrimination Act, ADEA, 29
U.S.C. $ 621 et seq., and Title VII on bases of national origin
and in reprisal for participation in prior EEO discrimination
complaint activities since 2002.. The case was put on inactive
docket pending adjudication of petitioner’s prior civil actions
2

filed the same court since 2005. In September 2018 the case
was re-activated and on October 31, 2018 Petitioner filed
motion to amend with six other Petitioner’s complaints. On
December 21, 2018 Petitioner’s motion was granted and on
January 5, 2019 Petitioner timely sent and served with
summons and amended/consolidated complaint each defendant
via US Postal Service certified mail with restricted delivery.
However, to dismiss the amended/consolidated case by fraud
the agency counsel Defendant Kessmeier with her assistants
Defendant Caron and others intercepted and committed Mail
Fraud and Wire Fraud with Petitioner’s certified mail and then,
after Petitioner timely discovered mail fraud and wire fraud
and timely filed 1/18/19 motion to investigate fraud,
defendants representatives deliberately misrepresented facts
and fabricated baseless accusations to cover-up Defendants
crimes and also used tampered official US Postal Service
records to file the 3/26/19 motion to consolidate the already
amended/consolidated case with five additional separate
lawsuits filed years apart and after the original case was filed.
The district court judge denied Petitioner’s motion to
investigate fraud and two motions to impose sanctions against
defendants and, instead, granted on 4/16/19 defendants’
fraudulent motion to consolidate based on fraud, baseless
accusations and tampered official US Postal Service records.
The decision of whether or not to consolidate cases for trial lies
within the sound discretion of the trial judge and will not be
overturned unless an abuse of discretion is shown. Cantrell v.
GAF Corp., 999 F.2d 1007, 1011. The district judge abused
discretion, committed judicial fraud, denied Petitioner’s motion
to investigate fraud, two motions for sanctions against
defendants and Petitioner’s 3/25/19 motion of opposition to
super consolidation. Direct evidence of judicial fraud and
defendants’ mail fraud and wire fraud are in the court records,
including original US Postal Service mail records with direct
evidence of tampering with certified mail return cards and the
usps mail tracking records. Note that not only in January 2019
mail fraud and wire fraud were committed by defendants and
3

defendants representatives with Petitioner’s mail to harm him,
to deny discovery, hearing and jury trial by fraud, but also in
2014, 2013 and prior years, the same career criminals
Defendant Kessmeier, Defendant Caron with defendants
representatives Rosenstein, Sippel, Jr. and others committed
mail fraud with Petitioner’s mail at the agency and at the
district court of Maryland and were caught repeatedly by
Petitioner, [see prior petition to this court No. 17-174],
however, were not stopped nor punished because of willful and
persistent judicial fraud committed by lower courts,
specifically, the district judges D. K. Chasanow, A. M. Davis
and others at the district court and at the 4th circuit, including
the chief judge Roger L. Gregory.. None of these criminals
were stopped or punished, instead crimes and criminals were
covered- up in Petitioner’s and his brother’s cases since 2005,
so that with impunity these career criminals were encouraged
to escalate additional violations of laws, fraud, including mail
fraud and wire fraud to harm Petitioners and the business of the
court.
Petitioner Dr. Yuri J. Stoyanov submits his
petition for a writ of certiorari to vacate the appeals
court decision and the district court final orders of
4/16/19 and 4/30/19 regarding respondents’ motion for
super consolidation of the already consolidated case,
after respondents were caught committing Mail Fraud
and Wire Fraud with Petitioner’s certified mail in an
attempt to dismiss the case by fraud, ‘for failure to
serve with summons and complaint defendants’.
Defendants’
failed
because
Petitioner
timely
discovered and disclosed to the court respondents’ Mail
Fraud and Wire Fraud in the motion to investigate
fraud and motions for sanctions. The district judge
abused discretion to cover-up respondents’ federal
crimes and to overburden and harm Petitioner.
Petitioner’s motions were denied while respondents’
motion to consolidate based on fraud and tampered
4

mail records was granted by abuse of discretion see
Cantrell v. GAF Corp., 999 F.2d 1007, 1011, and in
violations of laws and Petitioner’s rights committed by
respondents, and in violation of the Whistleblower’s
Protection Act, 5 U.S.C. 1214 et seq., 5 U.S.C. §§23012302; federal laws 28 U.S.C. § 1331, and 28 U.S.C.
1367, 28 U.S.C. 1343, 29 U.S.C. 621 et seq., 42 U.S.C.
1983, 18 U.S.C. 1512, Mail Fraud (18 U.S.C. section
1341) and Wire Fraud (18 U.S.C. section 1343).
Background

Petitioner and his brother Dr. Aleksandr J.
Stoyanov were born in the former Soviet Union in
1955 and became American citizens in 1984. After
receiving the Ph.D. in Physics from the Catholic
University of America in 1986 they applied for and
were awarded with the Office of Naval Technology
(ONT) Postdoctoral scholarships with the Department
of the Navy (“agency”) in 1986 and 1988, respectively.
Petitioner and his brother were employed as
Scientists, GM-13, ND-1310-4 at the Department of
the Navy, Naval Surface Warfare Center (NSWC),
Carderock Division in Maryland since 1987 and 1989,
respectively, until the new second level supervisor was
transferred from another technology department. The
new supervisor, Defendant King, who is now dead, but
at all times relevant herein was sick in the head from
brain tumor, hiding behind first level supervisors,
started and escalated the snowball of intentional
intentional
laws,
fraud,
violations
of
misrepresentations, intentional discrimination on the
basis of Petitioner’s age, national origin, and
retaliations for the Whistleblower’s and EEO
discrimination complaints activities, against Petitioner
and his brother, the only two Russian-born employees
5

in Code 701. Beginning in 2002, Petitioner filed
disclosures with the Office of Special Counsel and EEO
discrimination complaints with the agency, disclosing
violations of laws, fraud, discrimination and the coverup of crimes committed by the second level supervisor
and his subordinates, whom he fraudulently and
secretly promoted,
individuals with inferior
qualifications using “accretion of duty” pretext and
installed in positions of authority to escalate violations
of laws, fraud, and the cover-up, to escalate intentional
discrimination against Petitioner and his brother, to
retaliate for Whistleblowing
and discrimination
complaint activities and disclosures of conspiracy to
cover-up violations of laws.
Within a month, after Petitioner filed his first
EEO discrimination complaint of March 2002, the sick
in the head supervisor retaliated and in April 2002
transferred Petitioner to another technology
department involuntary, from the one where
Petitioner worked for over 15 years. Petitioner and his
brother were forced to file additional disclosures with
the chain of naval command, with OSC and
discrimination complaints with the agency EEO office.
Because the administrative process was
corrupted by respondents, specifically, by criminal
conduct of the agency counsel Defendant Kessmeier
and her assistant Defendant Caron, the agency
investigations of the disclosures and complaints of
discrimination were stalled or entirely precluded by
fraud, to cover-up the respondents’ violations of laws,
intentional discrimination and conspiracy to escalate
retaliations and harm to the Petitioner and his
brother.
1 See Dr. Stoyanovs’ cases with this Court Nos.08-1238, 08-888, 08-95,
09-1015, 09-1415, 17-174

6

In December 2006, Petitioner listed specific
disclosures of violations of law, rule or regulation
committed and the abuse of authority by the
Defendants in Petitioner’s civil action at issue. The
Petitioner made these disclosures through the chain of
Naval command including the Secretary of the Navy
Dr. D. Winter on January 4, 2007; on January 5, 2007
to the Navy Inspector General; and on January 25,
2007 to the Office of Special Counsel (OSC). In reprisal
for the above whistleblower’s activities and EEO
discrimination complaint activities, Defendants
retaliated and maliciously escalated prohibited
personnel actions. On February 2, 2007, Defendants
maliciously suspended Petitioner’s Top Secret Security
clearance on fabricated baseless accusations and on
the same day unlawfully suspended Petitioner from
work and later issued the notice of indefinite
suspension in addition to other violations committed
by the Defendants. Petitioner filed appeal with the
MSPB, however, the administrative judge started from
the February 2007 suspension of Petitioner’s security
clearance and stated that the MSPB has no
jurisdiction over Petitioner’s claims in the IRA appeal.
Petitioner filed appeal with the EEOC-OFO because of
the EEO discrimination and retaliation claims in the
“mixed case” filed with the MSPB.
The EEOC-OFO issued its decision with the
right to file a civil action in the US District Court
because of the Petitioner’s claims of Whistleblowing
and EEO discrimination activities. Petitioner timely
filed civil action Case No. 09-3479 that was put
immediately in an inactive status pending
adjudication of the Petitioner’s prior civil actions filed
with the same court since 2005.

7

District Court Judge C. Blake’s Fraud and Abuse of
Discretion

In September 2018, Petitioner’s eighth civil
action was reactivated and the case was assigned to a
district court judge C. C. Blake.
The evidence of the willful and persistent
judicial fraud is in the court records: since Petitioner and
his brother filed first lawsuits of 2005, defendants were not
stopped, none of the defendants were examined under oath to
this day and none were persecuted or punished so that they
again with impunity escalated and committed additional
violation of laws, intentional discrimination, egregious
retaliations, fraud, including the Federal crimes, namely, the
January 2019 Mail Fraud (18 U.S.C. section 1341) and the
Wire Fraud (18 U.S.C. section 1343) and were caught again2,
see Petitioner’s 1/18/19 “Motion to Investigate Fraud and to
Compel Defendants Representatives to Accept and Serve with
Summons and Complaint 15 Defendants.” Appendix 5A.
Note that defendant Kessmeier with her assistant
defendant
Caron
and
others,
and
defendants
representatives committed Federal crimes of Mail Fraud
and Wire Fraud not only at the agency in Bethesda, MD but
also at the district court of Maryland in Baltimore and
Greenbelt, MD, and not only in January 2019 but also in
20143, 2013, 2008 and prior years and all their crimes were
intentionally covered up by judicial fraud so that they could
with impunity continue to escalate violations of laws and
commit more crimes, including Federal crimes and the
cover- up of crimes and criminals.
In instant case the same pattern of defendants’
violations of laws, fraud, including mail and wire fraud, and
2 See Dr. Stoyanov’s instant Case No. CCB-09-3479 Appendices 5A, 6A
and 7A
3 See Dr. Stoyanov’s sixth petition to the US Supreme Court No. 17- 174

8

willful and persistent judicial fraud to cover- up crimes and
criminals was repeated. Specifically, since the original 2009
case was reactivated in September 2018, petitioner filed
10/31/18 motion to amend/consolidate with Petitioner's
six complaints. Petitioner's motion was granted and the
original case was consolidated pursuant to 12/21/18
order, and included 72 claims, 14 counts against
defendants and 20 witnesses. On January 5, 2019 Petitioner
timely sent summons and amended/consolidated
complaint to each defendants via US Postal Service certified
mail with restricted delivery.. The mail was intercepted at
the agency by the agency counsel Defendant Kessmeier
with her assistant Defendant Caron and others to dismiss
the lawsuit by fraud. Defendant Kessmeier with her
assistants committed intentional Mail Fraud and Wire
Fraud with Petitioner’s mail. Petitioner timely discovered
and filed 1/18/19 "Motion to Investigate Fraud and to
Compel Defendants Representatives to Accept and Serve
with Summons and Complaint 15 Defendants.” While direct
evidence of mail fraud and wire fraud with the original US
Postal Service mail tracking records were attached to
Petitioner’s
motion,
defendants’
representatives
deliberately misrepresented facts and fabricated baseless
accusations to cover- up crimes and criminals. Petitioner
filed 'motion for sanctions and disclosed defendants and
defendants’ representatives fraud and baseless accusations.
However, to harm Petitioner district judge abused
discretion, committed judicial fraud denied Petitioner’s
motions and covered-up Defendants’ federal crimes,
defendants representatives Hur/Marzullo's fraud and
baseless accusations, instead of conducting discovery and
the investigation into federal crimes committed by
defendants 'representatives persisted with deliberate
misrepresentations, fraud, tampered mail records and
baseless accusations in their motions and then demanded
consolidation by fraud of the already consolidated case
9

with five additional separate lawsuits filed years apart.
Petitioner vigorously opposed the consolidation and timely
filed the 4/5/19 oppositions to defendants' unsupported
3/26/19 motion based on fraud and fraudulent records.
Petitioner established that consolidation with five
additional lawsuits filed years apart is improper because of
critical factual differences, different timing, different claims,
different violations of laws, additional or different
defendants. Differences make it impossible to apply the
state of the art defense. Consolidation is improper where it
would expand the scope of its trial. A joint trial would
expand the number of witnesses and the scope of
examination. A joint trial would prejudice both trials of fact
and cause delay, confusion and wasted resources. The
inefficiencies inherent in a joint trial outweighed
efficiencies from consolidation. An "advisory jury”
compounds rather than solves the inefficiencies and
prejudice of consolidating fact finders in a joint trial.
Separate trials would yield significant efficiencies.
Defendants have not met their burden of showing sufficient
commonality and their main motive is fraud, harm and
overburden Petitioner and to cover-up Defendants’ crimes,
including recurring federal crimes of mail fraud and wire
fraud. The district judge Blake committed fraud and denied
Petitioner's 'motion to investigate fraud’ and two 'motions
for sanctions’, which were unopposed by defendants,
instead, granted Defendants' unsupported ‘motion to
consolidate’ based on fraud and Defendants’ tampered
official US Postal Service records4.
The final 4/16/19 order is the manifest of injustice:
denied Petitioner’s 1/18/19 motion to investigate fraud
and two motions for sanctions, and, instead, granted
defendants’ fraudulent motion to consolidate the already
consolidated case with five additional separate lawsuits
filed years apart, so that these career criminals with
4 See Appendix 3A, U.S. District Court Order 4/16/19.

10

impunity can continue to escalate violations of laws, fraud,
intentional discrimination and egregious retaliations.
Petitioner’s 4/26/19 motion to reconsider and rescind the
4/16/19 order was denied on 4/30/19. The district court
4/16/19 and 4/30/19 Orders on consolidation are final
orders, based on fraud, wrong and are a clear manifest of
injustice and fraud that imposed undue burden on the
Petitioner. Because defendants’ representatives persisted
with deliberate misrepresentations, fraud and baseless
accusation Petitioner was forced to file on May 5, 2019
additional motions to bring truthfulness into court
proceedings and to punish defendants’ representative Hur
and Marzullo and to stop them for committing additional
violations laws, fraud and harm, and to stop their criminal
conduct. Petitioner's "Motion to Compel Defendants
Representatives to Certify Under Penalty of Perjury the
Content of Defendants' Correspondence to the court to be
Accurate and True”, "Motion to Compel Defendants to Send
Confirmation to the Plaintiff for every Defendants'
Correspondence submitted to the Court", "Motion to
disqualify and remove K. Marzullo from Defendants’
representative position under Fed. R. Civ. P. 54(b] based on
the facts that there is no just reason for Ms. Marzullo to
continue to corrupt instant civil action and to harm Plaintiff
by deliberate misrepresentations, fraud, violation of laws,
court rules and expressed evidence presented in the
Plaintiffs filings since the January 18, 2019 "Motion to
Investigate
Fraud
and
to
Compel
Defendants'
Representative to Accept and Serve with Summons and
Complaint on 15 Defendants" and "Motion for Sanctions
against Defendants.” Petitioner’s motions were supported
by direct evidence in the court records and were timely
filed so that Petitioner could proceed with discovery, to
investigate defendants’ crimes, to obtain fair hearing and
jury trial. Petitioner's motions were denied by district judge
Blake in June 2019, so that career criminals such as
11

defendants Kessmeier and Caron and others, and
defendants’ representative Hur and Marzullo, could
continue with impunity, to escalate violations of laws, fraud
and harm to Petitioners and the business of the court.
The 4th circuit did not address any issue raised in
Petitioner’s appeal, instead dismissed the appeal by fraud
"for lack of jurisdiction because the underlying litigation
remains ongoing” contrary to the fact that district judge
orders 4/16/19 and 4/30/19 on defendants' untimely and
fraudulent motion to consolidate the already consolidated
case are final. See Petitioner's 4/5/19 motion of opposition
to defendants’ 3/26/19 motion to consolidate the already
consolidated case with five additional separate lawsuits are
final and Petitioner's 4/26/19 motion to reconsider and
rescind 4/16/19 order5 was denied on 4/30/19.
Facts that Respondent fabricated baseless charges against.
Petitioner and then committed Mail Fraud and Wire
Fraud to dismiss Petitioner’s claims by fraud, were
caught, and then filed fraudulent motion to super
consolidate the already consolidated case

The fact that defendants intentionally fabricated
2007 baseless charges against the Petitioner to
retaliate against him, to suspend Petitioner’s security
clearance by fraud and to remove from federal service
by fraud is obvious to any reasonable mind, because
the defendants were aware that they could violate
federal laws including intentional discrimination,
egregious retaliations, fraud, including mail fraud and
wire fraud against the Petitioner with impunity6.
Since 2005 Petitioner’s lawsuits/civil actions were
5 Petitioner’s 3/26/19,4/5/19 and 4/26/19 motions in Appendices 6A, 7A
and 8A
6 See Dr. Stoyanovs’ cases 08-1238, 08-888, 08-95, 09-1015, 09-1415,
17-174

12

decided by willful and persistent judicial fraud at the
district court and 4th circuit. The defendants’ 2007
baseless charges against Petitioner were listed in the
original amended/consolidated by Petitioner case as 72
claims and 14 counts against defendants. One of the
most crucial reason Defendant Kessmeier with her
assistant defendant Caron and others so blatantly,
maliciously, willfully and persistently committed the
January 2019 mail fraud and wire fraud with
Petitioner’s mail was because they know that their
federal crimes will be covered up by criminals on the
bench at the district court and 4th circuit, and the
other important reason, they wanted to dismiss claims
by fraud, to preclude discovery, hearing, jury trial, so
that defendants would not testify under oath and then
loose their security clearance and jobs for perjury and
fraud,
because
these
claims
in
original
amended/consolidated by Petitioner complaint were
already before the court of law, as accusations/charges
fabricated by defendants against Petitioner,
specifically, before the administrative judge at the
Defense Office of Hearings and Appeals (DOHA), who
ruled in favor of Petitioner.
Administrative judge observed during the
DOHA hearing that none of the accusers came to the
hearing to testify under oath because their accusations
were baseless and they were afraid to testify at the
hearing and then lose their security clearances for
perjury and fraud.
After
defendants
and
defendants’
representatives’ attempt to dismiss these claims by
fraud, using tampered by them mail records failed,
then, they maliciously filed fraudulent motion to
consolidate, to water down and blend claims that were

13

already before DOHA judge with claims in the five
separate lawsuits, filed years apart,
The evidence of the defendants’ fraud, malicious
retaliations against the Petitioner is unambiguous in
this civil action case. After Petitioner filed the 2007
appeal with the special court the Defense Office of
Hearings and Appeals (DOHA) on the merits of
security clearance suspension and rebutted all
defendants’ accusations of February 2007, Petitioner’s
Top Secret security clearance was restored, indefinite
suspension was terminated, and Petitioner was
reinstated to pay status in April 2008. Administrative
judge at the special court hearing DOHA for industrial
security clearance and trustworthiness made decision
in favor of the Petitioner on the merits of security
clearance suspension and Petitioner’s TOP SECRET
security clearance was restored. The DOHA Judge also
observed during the hearing that the accusers were
afraid to testify under oath and to loose their security
clearances for perjury and fraud. Since Petitioner filed
the original 2009 civil action with 34 claims and
fourteen counts against the defendants, after the
EEOC-OFO issued decision with the right to file civil
action in the US District Court, the defendants were
not stopped, none of the defendants were examined
under oath, none was punished, and defendants with
impunity escalated and committed additional
violations of laws, including Federal crimes of Mail
Fraud (18 U.S.C. section 1341) and Wire Fraud (18
U.S.C. section 1343) in 2008, 2013, 2014 to harm the
Petitioner, and were caught again7 in January 2019,
after Petitioner’s claims, that were already reviewed
by DOHA judge in 2008, were consolidated on
7 See Dr. Stoyanov’s Case No. CCB-09-3479 [with 72 claims, 14 counts
and 20 witnesses], Appendix 5A.

14

Petitioner’s 10/31/18 motion to amend (to include
additional 38 claims from six complaints). In January
2019, Petitioner timely sent and served each
defendant with summons and consolidated complaint
(with 72 claims and 14 counts against 20 defendants).
However, to dismiss the case by fraud Defendant Kessmeier
with her assistants maliciously, willfully and
persistently committed the January 2019 Mail Fraud
and Wire Fraud with Petitioner’s mail. Because
Petitioner timely discovered mail and wire fraud and
disclosed to the court via motion to investigate fraud,
Appendix 5A, the dismissal of the case was precluded,
but fraud and the tampered official US Postal Service
records were then used again by defendants’
representatives in defendants’ motion to consolidate
the already consolidated by Petitioner case with five
other separate lawsuits filed years apart.
Direct evidence in the records show to any reasonable
mind that district judge Blake willfully and persistently
abused discretion and committed judicial fraud to coverup defendants’ malicious, willful and persistent
violations of laws, fraud, harmed petitioner, and denied
Plaintiffs 7 motions with direct evidence of defendants
fraud 8
8

1], 1/18/19 “Motion to Investigate Fraud and to Compel Defendants’
representative to Accept and Serve with Summons Defendants Kessmeier,
Caron, Han, Crock, Forman, Goldman, Wilson, Martin, Wade, Snyder,
Baberich, Reeves, Murphy, Thomas, Templeton, Mayo”;
2] 3/25/19 “Motion for Sanctions and Rebuttal of Defendants Fraudulent
response of 3/13/19 and 3/18/19 to Plaintiffs 1/18/19 Motion to Investigate
Fraud and to Compel Defendants’ representative to Accept and Serve with
Summons 15 Defendants at Bethesda, MD”;
3] 4/6/19 “Second Motion for Sanctions and Opposition to Defendants’
Unsupported Motion of 3/26/19 with Fraudulent Demand to Consolidate”;

15

For the foregoing reasons, Blake’s final orders of
4/16/19 and 4/30/19 must be vacated to prevent
manifest injustice and to stop the consolidation of
Plaintiffs instant case of 2009 with the Plaintiffs five
separate civil actions that were filed years apart, in
2011, 2012, 2013 and 2014. Because of the fraud and
abuse of discretion by district judge the final orders of
4/16/19 and 4/30/19 are in violation of Plaintiffs rights,
see Cantrell v. GAF Corp., 999 F.2d 1007, 1011.
Plaintiff timely opposed the consolidation of five
additional lawsuits for which he paid full filing fees.
The pattern of judicial fraud is already in the court
records, see the above listed Plaintiffs motions that
were denied by district judge Blake by fraud. The 4th
circuit overlooked material, factual, and legal matter
in addition to the reversible errors committed by
Blake. Lower courts final orders are clearly conflict
with this Court’s decisions and decisions of circuit
courts, in Arnold v. Eastern Air Lines, Inc., 681 F.2d
186, 193 (4th Cir. 1982), Cantrell v. GAF Corp., 999 F.2d
1007, 1011; Huene v. United States, 743 F.2d 703, 704
4] 4/26/19 “Motion to Reconsider and Rescind the 4/16/19 Order and to Issue
New Order to rescind consolidation of lawsuits, and to grant Plaintiffs
motions to Investigate Recurring Federal Crimes of Mail Fraud and Wire
Fraud committed by Defendants and to Impose Sanctions against
Defendants”;
5] 5/6/19 “Motion to Compel Defendants Representatives to Certify
Under Penalty of Perjury the Content of Defendants’
Correspondence to the court to be Accurate and True”;
6] 5/6/19 “Motion to Disqualify and Remove K. Marzullo from
Defendants’ Representative Position”
7] 5/6/19 “Motion to Compel Defendants to Send Confirmation to
the Plaintiff for every Defendants’ Correspondence submitted to
the Court”

16

(9th Cir. 1984); in Dennis v. Columbia Colleton Med.
Ctr., Inc., 290 F.3d 639, 648 (4th Cir. 2002) and the
decisions of the Supreme Court in Burlington N. &
S.F. Ry. Co. v. White, 126 S. Ct. 2405, 2425 (2006) and
Reeves v. Sanderson Plumbing Products, Inc, 530 U. S.
133, 140 (2000),. Id at 648.
Therefore, fact-bound ruling does warrant this
Court’s review and to exercise it’s supervisory powers
to correct judicial fraud by lower courts involving “the
proper administration of judicial business.”
Conclusion

The district court judge Blake acted with reckless
disregard of the truth, abused discretion, committed
judicial fraud and her final Orders to consolidate five
additional lawsuits filed years apart were based on fraud
and fraudulent arguments submitted by defendants
representatives to harm Plaintiff and to cover- up
recurring Federal crimes of Mail Fraud and Wire Fraud
and to preclude sanctions against defendants for
violations of laws and fraud. The 4th circuit fraudulently
overlooked Blake’s judicial fraud, and the reversible
errors. Accordingly, Petitioner respectfully requests this
court to Rescind the final 4/16/19 and 4/30/19 Orders of
consolidating five additional lawsuits filed separately
years apart. The 4th circuit wrongly dismissed Petitioner’s
appeal “for lack of jurisdiction” and did not address any
issue raised in Informal Brief. Accordingly, the lower
courts decisions in this case should be vacated and
reversed because their judgment contradicts direct
evidence in the court records. .
ARGUMENTS

17

Petitioner vigorously opposes the defendants’
fraudulent motion to consolidate the already
amended/consolidated case, filed months apart after
summons and amended/consolidation complaint were
already sent and served to each defendant and then
survived defendants’ attempt to dismiss the case by
fraud, by committing mail fraud and wire fraud with
Petitioner’s certified mail, and then using tampered
official US Postal service records and fraud to seek
super consolidation of the already consolidated case
because Petitioner timely discovered and disclosed
defendants’ mail fraud and wire fraud in his 1/18/19
‘motion to investigate fraud’ and in the two ‘motions to
impose sanctions against defendants.’
After defendants committed mail fraud and wire
fraud with Petitioner’s mail but failed to dismiss the
amended/consolidated case, then they filed the
untimely fraudulent 3/26/19 motion to consolidate
using fraud, fraudulent records and baseless
accusations.
Thus, now, while Petitioner served defendants
with summons and amended/consolidated complaint
each, and awaited discovery and production of
documents and witnesses, and defendants’ responsive
pleading in the already consolidated by petitioner case
with 72 claims 14 counts and 20 witnesses, defendants
filed motion to consolidate with five separate lawsuits
that were filed years apart and years away after the
original case was filed. Therefore, instead of moving
forward, defendants asked the court to require
petitioner to forgo all the progress that was made thus
far and to return to square one in order to overburden
petitioner with hundreds of additional claims and
witnesses and to cover- up defendants federal crimes,
intentional discrimination, egregious retaliations,
18

fraud, including defendants’ January 2019 mail fraud
and wire fraud and their use of fraudulent records.
Such move already burdened and delayed
progress at this stage of litigation, and would present
no efficiency gains with respect to claims that are
different from those in the original case and filed years
apart. It would particularly set Petitioner back and
would prejudice his ability to reach a timely resolution
of the original consolidated case. It would also be a
waste of significant resources already put into case.
Defendants would have plaintiff step away from
litigating
the
substance
of
the
already
amended/consolidated case and embark on a
complicated super consolidation of five separate
lawsuits with a different sets of claims, different
employment time spans and numerous defendants in
each lawsuit, filed years apart and after the original
case was filed and each defendant was already served
with summons and amended/consolidated complaint.
STANDARD OF REVIEW
Rule 42(a) of the Federal Rules of Civil Procedure
permits the consolidation of actions that pose common
questions of law or fact. Judicial economy generally
favors consolidation, see Johnson v. Celotex Corp., 899
F.2d 1281, 1284-85 (2d Cir. 1990), but the Court must
conduct a careful inquiry in this regard that balances
the prejudice and confusion that consolidation might
entail against the waste of resources, the burden on
the parties, and the risk of inconsistent judgments
that separate proceedings could engender. See Arnold
v. Eastern Air Lines, Inc., 681 F.2d 186, 193 (4th Cir. 1982).
While courts have discretion to consolidate cases that
involve “a common question of law or fact”. Fed. R.
Civ. P. 42(a); however, the party seeking consolidation
19

bears the burden of demonstrating that convenience
and judicial economy would result from consolidation.
Wright v. United States, No. 3:92-cv-01290-BAC, 1993 WL
313040, at *1 (N.D. Cal. Aug. 6, 1993). Although the
threshold question is whether the cases involve
common issues of law or fact, consolidation is not
appropriate in all cases with common issues. Courts
must “weigh [] the interest of judicial convenience
against the potential for delay, confusion and prejudice
caused by consolidation.” Southwest Marine, Inc. v. Triple
A Mach. Shop, Inc., 720 F. Supp. 805, 807 (N.D. Cal. 1989);
Zhu v. UCBH Holdings, Inc., 682 F.Supp.2d 1049, 1052 (N.D.
Cal. 2010); Huene v. United States, 743 F.2d 703, 704 (9th Cir.
1984); see also E.E.O.C. v. HBE Corp., 135 F.3d 543, 551
(8th Cir. 1998) (consolidation is not appropriate where it
causes “inefficiency, inconvenience, or unfair prejudice
to a party”). Differences in procedural posture also
tend to weigh against consolidation. See Parapluie v.
Mills, No. 2:ll-cv-02548-MMM-SS, 2012 WL 13009100, at
*6 (C.D. Cal. Jan. 26, 2012).
In deciding whether to consolidate cases, the trial
court must consider: (1) whether the trial process will
be accelerated due to the consolidation, (2) whether
unnecessary costs and delays can be avoided by
consolidation, (3) whether there is the possibility for
inconsistent verdicts, (4) whether consolidation would
eliminate duplicative trials that involve substantially
the same core operative facts and questions of law, and
(5) whether consolidation would deprive a party of a
substantive right.

DISCUSSION

20

"Rule 42(a) of the Federal Rules of Civil Procedure
gives the Court powers to consolidate actions involving
common questions of law or fact if, in its discretion,
such consolidation would facilitate the administration
of justice."7 However, "[t]he mere existence of common
issues, a prerequisite to consolidation, does not require
consolidation. "8
In
determining
whether
to
consolidate, the court balances the savings of time and
effort gained through consolidation against the
inconvenience, delay, or expense that it might cause.9
In instant case, the reason defendants filed motion to
consolidate after petitioner served with summons and
the amended/consolidated complaint each defendant,
was that defendants committed mail fraud and wire
fraud with petitioner’s certified mail but failed to
dismiss the case because Petitioner timely discovered
and disclosed their fraud. After they failed to dismiss
the already consolidated case, then they filed motion to
consolidate using the same fraudulent postal service
records and baseless accusations. The party seeking
consolidation bears the burden of demonstrating that
convenience and judicial economy would result from
consolidation Wright v. United States, No. 3:92-cv-01290BAC, 1993 WL 313040. In this case defendants failed to
carry their burden, failed to provide a legally sufficient
submission to support their motion, failed on the
ground that there was sufficient commonality, and,
instead of facts, they used fraud, fraudulent
arguments and baseless accusations. See P’s ‘motions
in Appendices 5A to 8A.
Courts must “weight] the interest of judicial
convenience against the potential for delay, confusion
and prejudice caused by consolidation.” Southwest
Marine, Inc. v. Triple A Mach. Shop, Inc., 720 F. Supp. 805,
807 (N.D. Cal. 1989); Zhu v. UCBH Holdings, Inc., 682
21

F.Supp.2d 1049, 1052 (N.D. Cal. 2010); Huene v. United
States, 743 F.2d 703, 704 (9th Cir. 1984), Arroyo v. Chardon,
90 F.R.D. 603 (D. P.R. 1981); In petitioner’s instant case
the consolidation is inappropriate, because of critical
factual differences. The consolidation would prejudice
a substantial right of petitioner. Timing differences
make it impossible to apply the state of the art
defense. The amended/consolidated by petitioner case
versus the five separate lawsuits filed separately years
apart are in different procedural stages. Moreover,
since already amended/consolidated by petitioner case,
included
72
claims,
14
counts
and
20
witnesses/defendants who were already served with
summons and amended complaint each, there is no
reason to add five separate lawsuits filed separately
years apart and with hundreds of new claims and
witnesses. The consolidation is inappropriate because
there are differences in the question of law between
the amended/consolidated case vs. five other separate
cases, filed separately years apart, much of
the evidence admissible in one case would be
irrelevant and prejudicial in the other. If the parties at
issue, the procedural posture and the allegations in each case are
different, consolidation is not appropriate. Stewart v. O’Neill,
225 F. Supp. 2d 16, 21 (D.D.C. 2002). In short, “courts weigh
considerations of convenience and economy against
considerations of confusion and prejudice.” Chang v. United
States, 217 F.R.D. 262, 265 (D.D.C. 2003). As the Second
Circuit cautioned in denying a consolidation order in
1992, "The systemic urge to aggregate litigation must
not be allowed to trump our dedication to individual
justice, and we must take care that each individual
plaintiffs-and defendant's-cause not be lost in the
shadow of a towering mass litigation."?
In re
Repetitive Stress Injury Litigation, 11 F.3d 368, 373
(2nd Cir. 1993) (“A party moving for consolidation
22

must bear the burden of showing the commonality of
factual and legal issues in different actions”); CSX
Transp., Inc. v. Alban Waste, LLC, 13-cv-1770, 2014 WL
1340041, at *2 (D. Md. Apr. 2, 2014) (denying motion
for consolidation when the movant “failed to present a
compelling, or even desirable, case for consolidation”)]
There is a price to be paid for the bounty of
consolidation that needs to be taken into account.
[As&esfos Mass Tort Litigation, 32 WM. & MARY L.
REV. 475, 504 (1991); see also id. at 489 (reporting
that earlier Judge Parker had "believed he had
reached the maximum consolidation feasible" with
consolidated trials of 30 plaintiffs)].
Recognizing these concerns, the appellate courts have
not allowed district judges carte blanche to
consolidate, even in mass tort cases. In 1993, for
example, the Second Circuit overturned two efforts to
consolidate mass tort claims. The appellate court
noted the "herculean task" of coping with mass torts
and acknowledged that "[pre-trial consolidation for the
purposes of discovery, the appointment of special
masters to expedite the settlement, and, especially, the
liberal use of consolidated trials have ameliorated
what might otherwise be a sclerotic backlog of cases."
The court held that consolidation was an abuse of
discretion, reasoning that the varied work histories
of the plaintiff had presented the jury with a "dizzying
amount" of evidence, [see prior footnote] Although some
issues alleged in the complaints were similar, certain facts were
different, and the possibility of jury confusion was
considerable, see in the case of Arroyo v. Chardon, 90 F.R.D.
603 (D. P.R. 1981), the court denied motion to consolidate
under Rule 42(a) in an employment discrimination action with
eight other employment discrimination actions, since, although
the issues alleged in the complaints were similar, certain facts
23

were different, and the possibility of jury confusion was
considerable.
In Arroyo, the consolidation was sought on the grounds that all
nine complaints were very similar. Id. at 605. Nonetheless, the
court noted that "the alleged acts of the defendants in each
particular case upon which the plaintiffs' claims rest[ed were]
different to each one of them." Id. at 605. The court stated that
the "alleged job discrimination in [each action] must be proven
by presenting evidence of specific acts in which defendants
acted maliciously, wilfully, and in reckless disregard of
plaintiffs' constitutional rights in each particular case." Id. at
605. The court held that the possible prejudice to the
defendants due to the likelihood of confusion in the minds of
the jurors because of the similarity of issues alleged in the
complaints and the possibility of different facts in each case
outweighed the benefits of any possible convenience or
economy to be obtained from consolidation. Id. at 606.
This court should rescind the consolidation order on
the ground that defendants filed motion to consolidate
based on fraud and fraudulent arguments after their
attempt to dismiss the case by mail and wire fraud
failed. In addition, there was not sufficient
commonality and also that consolidation can
substantially affect the rights and interests of parties.
Consolidation is not appropriate where it causes
inefficiency, inconvenience, or unfair prejudice to a
party.
Moreover, defendants have not carried their burden of
showing that the cases relied on in their Motion to
Consolidate involve questions of law or fact common to
five separate cases filed years apart. United States v.
North Carolina. See Fed. R. Civ. P. 42(a); In re
Repetitive Stress Injury Litigation, 11 F.3d 368, 373
(2nd Cir. 1993) (“A party moving for consolidation
must bear the burden of showing the commonality of
factual and legal issues in different actions”); CSX
24

Transp., Inc. v. Alban Waste, LLC, 13-cv-1770, 2014 WL
1340041, at *2 (D. Md. Apr. 2, 2014) (denying motion
for consolidation when the movant “failed to present a
compelling, or even desirable, case for consolidation”).
The present action was filed years apart before five
separate lawsuits were filed. See also Huff v. Sw. Va.
Reg’l Jail Auth., No. l:08-cv- 41, 2009 WL 94625, at *2
(W.D.Va. Jan. 14, 2009) (denying motion to consolidate
employment discrimination actions when the common
time period between cases was only six months and
plaintiffs did not hold the same positions during their
employment); Duncan v. Maryland, 78 F.R.D. 88, 91 (D. Md.
1978) (denying consolidation because defendants have
not identified any pending action substantially
involving the same series of events or facts as in the
petitioner’s amended/consolidated case. The district
judge abused discretion to cover-up respondents’
federal crimes and to overburden and harm Petitioner.
Petitioner’s motions were denied while respondents’
untimely and fraudulent motion to consolidate the
already consolidated case was granted in violations of
laws, see Cantrell v. GAF Corp., 999 F.2d 1007, 1011, and
Petitioner’s
rights
committed by respondents
Accordingly this court should rescind lower court
orders because, consolidation based on fraud should be
denied.
Fact-bound ruling does warrant this Court’s
review and to exercise it’s supervisory powers to
correct errors involving “ the proper administration of
judicial business.”
CONCLUSION
As an initial matter, Petitioner respectfully
requests that this Court grants the petition for a writ
of certiorari in order to exercise its supervisory power
to restore justice and vacate the appeals court
25

decision. The petition for a writ of certiorari has merit
and is supported by direct evidence in the record.
For all the foregoing reasons, petitioner respectfully
requests that this Court exercise its supervisory power; rescind
lower courts decisions on consolidation. Accordingly, the
petition for a writ of certiorari should be granted
because the lower courts decisions clearly abused
discretion and far departed from justice
Pursuant to Rule 10(a) of this Court’s rules, this
Court may grant a petition for a writ of certiorari to
determine whether “the Court of Appeals ha[s] ‘so far
departed from the accepted and usual course of judicial
proceedings as to call for an exercise of this Court’s
supervisory powers.’ ” Nguyen v. United States, 539 U.S.69,
74 (2003). This Court has traditionally exercised its
supervisory powers to correct errors involving “the
proper administration of judicial business.” Id. at 81
(quoting Glidden Co. v. Zdanok, 370 U.S. 530, 536 (1962
(opinion of Harlan, J.). The Court thus invokes its
supervisory powers “to prescribe the method by which
[lower courts] go about deciding the cases before
them.” Id. at 81 n.13 (quoting Lehman Brothers v. Schein,
416 U.S. 386, 393 (1974) (Rehnquist, J., concurring)); see
McCarthy v. United States, 394 U.S. 459, 463-464 (1969).

ax>

Respectfully submitted,

Date
Dr. Yuri J. Stoyandv

26

